No. 21-164
IN THE

Supreme Court of the United States
_______________

TRUSTEES OF THE NEW LIFE IN CHRIST CHURCH,
v.

Petitioners,

CITY OF FREDERICKSBURG, VIRGINIA,
Respondent.
_______________

On Petition for a Writ of Certiorari
to the Circuit Court of the
City of Fredericksburg, Virginia
_______________

REPLY BRIEF FOR PETITIONERS
_______________

KELLY J. SHACKELFORD
HIRAM SASSER
JUSTIN BUTTERFIELD
FIRST LIBERTY INSTITUTE
2001 West Plano Parkway,
Suite 1600
Plano, Texas 75075

ALLYSON N. HO
Counsel of Record
ELIZABETH A. KIERNAN
JOSEPH E. BARAKAT
GIBSON, DUNN & CRUTCHER LLP
2001 Ross Avenue, Suite 2100
Dallas, Texas 75201
(214) 698-3233
aho@gibsondunn.com

KIMBERLEE WOOD COLBY
CENTER FOR LAW AND
RELIGIOUS FREEDOM
SAMUEL ECKMAN
CHRISTIAN LEGAL SOCIETY GIBSON, DUNN & CRUTCHER LLP
8001 Braddock Road,
333 South Grand Avenue
Suite 302
Los Angeles, California 90071
Springfield, Virginia 22151
Counsel for Petitioners
[Additional Counsel Listed On Inside Cover]

CHRISTINE A. BUDASOFF
PHILIP W. HAMMERSLEY
JASON MANION
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Avenue, NW
Washington, D.C. 20036

i
TABLE OF CONTENTS
Page
REPLY BRIEF FOR PETITIONERS ........................... 1
I. The Decision Below Flagrantly Violates
The Court’s Longstanding Prohibition On
Civil Authorities Resolving Religious
Questions. ............................................................ 2
II. In The Alternative, The Court Should
Grant, Vacate, And Remand For
Reconsideration In Light Of Fulton. ................. 9
CONCLUSION .......................................................... 11

ii
TABLE OF AUTHORITIES
Page(s)
Cases
Cudlipp v. City of Richmond,
180 S.E.2d 525 (Va. 1971) (per curiam) ....... 6, 11
Espinoza v. Mont. Dep’t of Revenue,
140 S. Ct. 2246 (2020) ......................................... 9
Fulton v. City of Philadelphia,
141 S. Ct. 1868 (2021) ......................................... 1
Gonzalez v. Roman Catholic Archbishop of
Manila,
280 U.S. 1 (1929) ................................................. 8
Int’l Missions, Inc. v. Borough of Lincoln
Park,
208 A.2d 431 (N.J. Super. Ct. 1965) ................... 8
Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in N. Am.,
344 U.S. 94 (1952) ........................................... 4, 8
Michigan v. Long,
463 U.S. 1032 (1983) ........................................... 9
Missionaries of Our Lady of La Salette v.
Michalski,
113 N.W.2d 427 (Wis. 1962) ............................... 8

iii
Presbyterian Church in the U.S. v. Mary
Elizabeth Blue Hull Mem’l Presbyterian
Church,
393 U.S. 440 (1969) ............................................. 2
Trinity Lutheran Church of Columbia, Inc.
v. Comer,
137 S. Ct. 2012 (2017) ......................................... 9
Watson v. Jones,
80 U.S. (13 Wall.) 679 (1871) .......................... 2, 8
Other Authorities
Opinions of the Attorney General and Report
to the Governor of Virginia 276 (Aug. 23,
1976) .................................................................. 10

1
REPLY BRIEF FOR PETITIONERS
The City’s sole argument against certiorari is that
the decision below is correct on the merits. But the
City doesn’t dispute that the First Amendment prohibits civil authorities from second-guessing religious
organizations on matters of internal governance. Nor
does it dispute that the courts below did precisely that
when they rejected the Church’s good-faith assertion
that Josh and Anacari Storms are ministers of the
Church based on the courts’ own, independent interpretation of the Presbyterian Church in America’s
Book of Church Order. The City’s arguments on the
merits only underscore the need for this Court’s review and reversal of the judgment below.
Indeed, the City goes so far as to argue (at 1, 4, 10,
11, 14) that the decision below doesn’t even implicate
the First Amendment because it doesn’t prohibit the
Church from recognizing the Stormses as ministers—
it merely denies them that recognition under the law.
It would be difficult to imagine a more anemic, atextual, ahistorical view of the First Amendment. The
fact that the City even asserts this argument highlights the lengths to which it must go to defend the
indefensible. The City even criticizes the Church (at
10) for misapplying its own doctrine in determining
that the Stormses are its ministers. But that is exactly what the First Amendment forbids: civil authorities undertaking their own inquiries into religious
doctrine to second-guess a church’s determination
about who can serve as its ministers.
The City is no more successful in distinguishing
Fulton v. City of Philadelphia, 141 S. Ct. 1868 (2021).
Although the City insists that generally applicable

2
taxes don’t impose a burden on the Church’s religious
exercise, this begs the question. The Church’s contention is that the Virginia tax statute is not generally
applicable because it provides exemptions for church
property occupied by some ministers (among many
other exemptions), but doesn’t extend such an exemption to ministers like the Stormses. If the Church is
correct, it may be denied the exemption only if the
City can show a compelling reason for doing so, which
it has not yet even attempted to do.
The decision below is not just wrong, but dangerously wrong. If permitted to stand, it would be “a
threat to First Amendment rights everywhere.” Brief
of Kentucky, et al., as Amici Curiae in Support of Petitioners at 1. The Court should summarily reverse or
grant certiorari and order merits briefing and argument. At the least, the Court should grant, vacate,
and remand for further consideration under Fulton.
I.

THE DECISION BELOW FLAGRANTLY VIOLATES
THE COURT’S LONGSTANDING PROHIBITION ON
CIVIL AUTHORITIES RESOLVING RELIGIOUS
QUESTIONS.

This Court has long recognized that “it [i]s wholly
inconsistent with the American concept of the relationship between church and state to permit civil
courts to determine ecclesiastical questions.” Presbyterian Church in the U.S. v. Mary Elizabeth Blue Hull
Mem’l Presbyterian Church, 393 U.S. 440, 445–46
(1969) (citing Watson v. Jones, 80 U.S. (13 Wall.) 679,
728–29 (1871)). Yet, when the City defended its decision to deny the exemption to the Church in court, it
did so based solely on its independent interpretation
of Church doctrine.

3
The City acknowledged that “[w]hether a non-ordained person can be ‘the minister’ for legal purposes
in the context of different religious denominations or
traditions depends on the organizational policies of
the organization” in question. Pet. App. 20a. But it
reasoned that, “in the context of a congregation affiliated with the Presbyterian Church in America, and
specifically of the local congregation to which the
plaintiffs belong, the organizational documents of the
church and the local congregation define ‘the minister’
as an ordained person.” Ibid. Because “[t]he Book of
Church Order utilizes the term ‘minister’ in contexts
that make it clear that the term refers to a duly ordained person with specific leadership duties,” the
City concluded that, “by its own definitions the
Church has limited its pastoral leadership to specific
individuals, none of which occupy the Property which
the Church seeks to have exempted from taxation.”
Id. at 70a–71a (emphasis added).
There can be no doubt that this is precisely the
type of inquiry into ecclesiastical questions that the
First Amendment prohibits. The City nonetheless offers three arguments in defense of the judgment below
that succeed only in underscoring the need for this
Court’s review and reversal of that judgment.
A. The City argues (at 10) that its denial of the
property-tax exemption doesn’t raise First Amendment concerns at all because it identifies only whom
the State may recognize as the Church’s minister, not
whom the Church may recognize as its minister. If
anything, this breathtaking argument only underscores why this Court’s review (and reversal) is imperative in this case.

4
As an initial matter, the City’s view of the First
Amendment cannot be reconciled with this Court’s
landmark decision in Kedroff v. St. Nicholas Cathedral of Russian Orthodox Church in North America,
344 U.S. 94 (1952). There, the Court considered a
New York law that recognized “the governing authorities of the Russian Church in America,” rather than
“the central governing hierarchy of the Russian Orthodox Church” in Moscow, as the trustee of church
property in New York. Id. at 106–07 & n.10. Even
though the law purported only to establish who within
the church had legal authority to control the use of
church property, the Court nevertheless held that it
violated the church’s “power to decide for themselves,
free from state interference, matters of church government as well as those of faith and doctrine.” Id. at
116.
This makes eminent sense. Although the government may claim only to identify who may speak for a
religious organization on civil matters, such an exercise of authority still “has the potential to cause
churches to modify their policy and practice, not from
religious considerations alone, but to conform to governmental dictates, interpretations, or predilections.”
Brief of the Assembly of Canonical Orthodox Bishops
of the United States of America, et al., as Amici Curiae
in Support of Petitioners at 8. The First Amendment
prohibits such interference in internal church matters
no matter the form it takes.
Moreover, the City’s view of the First Amendment, if permitted to stand, would have drastic consequences far beyond this case—essentially rendering
the church autonomy doctrine a dead letter. That doctrine is rooted in bedrock principles that can be traced

5
back to the Founding. As one group of amici explain,
“James Madison, the leading architect of the Religion
Clauses, once wrote that the selection of church ‘functionaries’—in common parlance, ministers—‘was an
entirely ecclesiastical matter left to the Church’s own
judgment,’” thereby “‘prevent[ing] the Government
from rendering an opinion on the selection of ecclesiastical individuals.’” Brief of Ethics & Religious Liberty Commission of the Southern Baptist Convention,
et al., as Amici Curiae in Support of Petitioners at 5.
The City, however, takes the view that the government has a free hand in selecting “ecclesiastical individuals” so long as it commands only civil authorities,
and not those individuals’ own purported congregations, to recognize their authority within the church.
It is “hard to come up with a fact pattern that more
starkly defies the long line of First Amendment precedent that governs this kind of dispute.” Brief of Kentucky, et al., as Amici Curiae at 11.
B. The City downplays the troubling ramifications of the decision below by insisting (at 4) that the
courts merely interpreted the statutory term “the
minister,” which doesn’t require delving into how any
particular church may use that term. Not so fast. As
the City itself acknowledged below, the statutory term
“the minister” simply incorporates the meaning that
each particular church ascribes to it: “Effectively the
statute * * * says to churches or religious bodies ‘you
tell us who your leader is, and if they reside in churchowned property, we will exempt that specific property
from taxation.’” Pet. App. 169a. Nonetheless, the
courts below conducted an independent inquiry—using the Church’s Book of Church Order—to override
the Church’s determination. Id. at 70a–71a, 73a; Pet.

6
12–13. That is not “statutory construction.” It is a
flagrant violation of this Court’s longstanding prohibition on civil authorities resolving ecclesiastical
questions.1
The City expresses great concern (at 10) about being unable to independently “verif[y]” a church’s determination about who serves as the minister of that
church. The whole point of the prohibition on civil authorities resolving ecclesiastical questions, however,
is to prohibit second-guessing in the guise of “verifying”—which civil authorities are ill-equipped to do.
This is particularly true as the number of religious
minorities in the United States grows. As one amicus
highlights, “[m]any minority faiths do not mirror
Christian entities in their doctrine, organization, or
structure, so civil authorities are less likely to understand or identify who their faith leaders are.” Brief
for the Coalition for Jewish Values as Amicus Curiae
in Support of Petitioners at 2. Indeed, “the religious
concepts at issue in the instant case—who is and who
is not a minister—have been the subject of profound

1

The City appears to contradict itself when it asserts that,
“[w]hile the Virginia legislature has not provided a definition of
‘the minister’ in the statute, the Supreme Court of Virginia has.”
Opp. at 12 (citing Cudlipp v. City of Richmond, 180 S.E.2d 525
(Va. 1971) (per curiam)). Cudlipp itself acknowledged that certain Virginia authorities “ha[ve] invariably extended the exemption to church-owned residences of assistant ministers of local
churches,” and concluded that a Bishop Coadjutor, although
“subordinate to the Bishop * * * for certain purposes,” nevertheless “may be considered ‘the minister’ of the Diocese.” 180 S.E.2d
at 527.

7
misunderstandings in the context of minority religions.” Id. at 10; see also id. at 8–10 (collecting examples).
But it is not only religious minorities who will suffer under the rule adopted below. “The volume and
formality of written statements vary from religion to
religion and, within Christianity, from denomination
to denomination and from church to church,” such
that the City’s approach would often operate “to the
detriment of more hierarchical churches, which, as a
rule, have more written policy statements than less
formal churches, giving government officials more
church documents to parse and interpret.” Brief of the
Assembly of Canonical Orthodox Bishops of the
United States of America, et al., as Amici Curiae at 7.
Importantly, the reasoning of the decision below
reaches far beyond property tax exemptions like Virginia’s. For example, parochial schools often receive
accreditation from religious organizations based on,
among other things, their adherence to the religious
organization’s doctrinal tenets. Brief for American
Association of Christian Schools, et al., as Amici Curiae in Support of Petitioners at 4. Under the decision
below, however, a state university could presumably
“deny admission to a graduate of an accredited school
based on a university administrator’s own determination that the school’s religious doctrines do not actually align with the statement of faith” required by the
accrediting organization. Id. at 4–5. Other, similar
scenarios are not difficult to imagine.
Because Virginia’s property tax exemption statute
defers to each religious organization’s own understanding of who its ministers are, and because the

8
Church represented in good faith that the Stormses
are its ministers, that should have been the end of the
matter.2
C. Proving the Church’s point, the City argues (at
10) that civil authorities may “recognize” and “give effect” to a church’s own “rules.” See also Pet. App.
170a–71a (“The Church cannot set its rules in the
[Book of Church Order] and expect for a court to ignore their plain language when the Church tells the
court, in an action that its Trustees filed, that the
Church is governed by the rules therein.”). But this is
just another way of saying that civil authorities
should be permitted to “verify”—i.e., second-guess—
churches’ resolution of ecclesiastical matters. This
Court has repeatedly rejected that proposition as fundamentally inconsistent with the First Amendment.
Pet. 10–11 (citing, e.g., Kedroff, 344 U.S. at 116; Watson, 80 U.S. (13 Wall.) at 727).
To be sure, the Court has long recognized that
civil authorities need not defer to religious ones in exceptional cases involving “fraud, collusion, or arbitrariness.” Gonzalez v. Roman Catholic Archbishop of
Manila, 280 U.S. 1, 16 (1929). But the City has never
argued that the Church’s position is fraudulent, collu-

2

Whatever concerns may arise when courts construe statutes
that expressly require church officials be ordained or authorized
to perform specific sacerdotal functions to qualify for various exemptions, e.g., Missionaries of Our Lady of La Salette v. Michalski, 113 N.W.2d 427, 430 (Wis. 1962); Int’l Missions, Inc. v. Borough of Lincoln Park, 208 A.2d 431, 432–33 (N.J. Super. Ct.
1965), this case doesn’t implicate them because Virginia—and
the City—has interpreted the statute at issue here to defer to
each individual church’s understanding of who its ministers are.

9
sive, or arbitrary. Nor could it, as the Church provided a robust justification for its conclusion that the
Stormses are ministers under Chapter 12 of the Book
of Church Order, which “provides each church rather
broad authority to govern its own affairs which would
include the ability to hire ministers to cater to specialized groups, such as youth.” Pet. App. 95a; see also
Pet. 8–9. Rather, the City argues only that the
Church is wrong. But this is precisely the type of
good-faith dispute over questions of church doctrine
that civil authorities may not resolve.3
II. IN THE ALTERNATIVE, THE COURT SHOULD
GRANT, VACATE, AND REMAND FOR RECONSIDERATION IN LIGHT OF FULTON.
Three months after the Virginia Supreme Court
disposed of this case, this Court held that a law is not
“neutral” and “generally applicable,” and thus triggers
strict scrutiny under the First Amendment, when it
confers on government authorities broad discretion to
grant exemptions from a facially neutral state law.
Because the courts below did not have the opportunity
to consider Fulton’s impact on this case, at the very
least the Court should grant certiorari, vacate the decision below, and remand for further consideration in
light of Fulton (if the Court doesn’t summarily reverse
3

The City does not argue that there is an adequate and independent state ground for the decision below. See Michigan v.
Long, 463 U.S. 1032, 1038 (1983). And for good reason. Whether
government actors have intruded on church autonomy in violation of the First Amendment is a federal question, as are other
constitutional questions implicated in cases involving the application of state statutes. See, e.g., Espinoza v. Mont. Dep’t of Revenue, 140 S. Ct. 2246 (2020); Trinity Lutheran Church of Columbia, Inc. v. Comer, 137 S. Ct. 2012 (2017).

10
the decision below or order full merits briefing and argument).
The City argues (at 12) that Fulton doesn’t apply
because the Church “has not been put to the choice of
abandoning or compromising its religious beliefs,” but
rather “is required to pay generally-applicable property taxes on real estate it owns—an obligation the
Constitution permits and of which [the Church] rightfully does not complain.” While it is true that this
Court’s Free Exercise Clause precedents don’t require
a state to grant a church an exemption from its generally applicable tax laws, the question here is whether
Virginia’s property tax regime is sufficiently neutral
and generally applicable to evade scrutiny under
those precedents, given the virtually unfettered discretion it grants taxing authorities in determining eligibility for the exemption.
The City insists that, unlike the regulation in Fulton, the Virginia statute doesn’t have “a vague ‘good
cause’ standard [that] permits the government to
grant exemptions on a case by case basis[.]” Opp. at
12. But this is simply untrue. The City’s interpretation of the statute gives the City the authority to assess the legitimacy of each religious organization’s determination of who serves as its ministers without
objective statutory standards to guide that inquiry.
Such a statute necessarily requires application on a
case-by-case basis.
Virginia taxing authorities have extended the exemption to a church whose property was occupied by
an unordained music minister, see Opinions of the Attorney General and Report to the Governor of Virginia
276, 276–77 (Aug. 23, 1976), and to a number of

11
churches whose properties were occupied by assistant
ministers, see, e.g., Cudlipp, 180 S.E.2d at 527. None
of these officials exercised the authority enjoyed by
the Stormses. Pet. 5–6. Despite this inconsistent
treatment, the City has never attempted to proffer a
compelling reason for denying an exemption to the
Church.
Accordingly, if the Court doesn’t summarily reverse the decision below or order full merits briefing
and argument, it should grant the petition, vacate the
judgment, and remand for the courts below to resolve
in the first instance whether the City’s denial of the
exemption here violates the First Amendment as interpreted in Fulton.
CONCLUSION
The Court should summarily reverse the decision
below or, at a minimum, order merits briefing on the
question whether civil authorities may engage in their
own interpretation of church doctrine to overrule a
church’s determination that a particular individual is
a minister. In the alternative, the Court should grant
the petition, vacate the decision below, and remand in
light of Fulton.
Respectfully submitted,

12

KELLY J. SHACKELFORD
HIRAM SASSER
JUSTIN BUTTERFIELD
FIRST LIBERTY INSTITUTE
2001 West Plano Parkway,
Suite 1600
Plano, Texas 75075

ALLYSON N. HO
Counsel of Record
ELIZABETH A. KIERNAN
JOSEPH E. BARAKAT
GIBSON, DUNN & CRUTCHER LLP
2001 Ross Avenue, Suite 2100
Dallas, Texas 75201
(214) 698-3233
aho@gibsondunn.com

KIMBERLEE WOOD COLBY
CENTER FOR LAW AND
RELIGIOUS FREEDOM
SAMUEL ECKMAN
CHRISTIAN LEGAL SOCIETY GIBSON, DUNN & CRUTCHER LLP
8001 Braddock Road,
333 South Grand Avenue
Suite 302
Los Angeles, California 90071
Springfield, Virginia 22151
CHRISTINE A. BUDASOFF
PHILIP W. HAMMERSLEY
JASON MANION
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Avenue, NW
Washington, D.C. 20036

Counsel for Petitioners
September 22, 2021

